TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Improvements Are Needed to
                          Ensure the Effectiveness of the
                       Privacy Impact Assessment Process



                                        February 27, 2013

                              Reference Number: 2013-20-023




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


IMPROVEMENTS ARE NEEDED TO                            more efficient and less time-consuming way.
ENSURE THE EFFECTIVENESS OF THE                       However, several key processes were not
PRIVACY IMPACT ASSESSMENT                             effectively automated. For example, privacy
PROCESS                                               analysts must view numerous individual screens
                                                      rather than scrolling through the information
                                                      seamlessly, responses in the system are not
Highlights                                            grouped by topic or subject matter, and the
                                                      automated e-mail notification function is not
                                                      consistent.
Final Report issued on
February 27, 2013                                     WHAT TIGTA RECOMMENDED

Highlights of Reference Number: 2013-20-023           TIGTA made 11 recommendations to the
to the Internal Revenue Service Director,             Director, Privacy, Governmental Liaison, and
Privacy, Governmental Liaison, and Disclosure.        Disclosure, that included the following:
                                                      1) establish an annual reconciliation of PIA
IMPACT ON TAXPAYERS                                   inventories with information systems and
                                                      collections of information in the current
The Privacy Impact Assessment (PIA) process           production environment; 2) document and
examines the risks and ramifications of using         publicize the customer survey PIA completion
information technology to collect, maintain, and      process; 3) establish a PIA inventory control
disseminate information in identifiable form          process to identify and review systems every
about members of the public and agency                three years as required; 4) automate the
employees. The IRS recognizes that privacy            notification process to alert responsible officials
protection is both a personal and fundamental         when new or existing PIAs are required to be
right of all taxpayers and employees.                 posted to the IRS public website; and 5) ensure
WHY TIGTA DID THE AUDIT                               that current and complete standard operating
                                                      procedures are established and maintained for
This audit was initiated at the request of the IRS    all PIA processes. TIGTA also recommended
to evaluate its implementation of the privacy         that IRS officials who develop third-party website
provisions of the E-Government Act of 2002,           information be directed to submit website
which requires agencies to conduct PIAs. In           proposal details and approval requests to the
addition, the Consolidated Appropriations Act         IRS New Media Governance Council and
of 2005, Section 522, requires the Inspector          coordinate with website owners to post a link to
General of each agency to evaluate privacy and        the IRS privacy policy on these third-party
data protection procedures. This review was           websites.
part of our statutory requirements to annually
review the adequacy and security of IRS               The IRS agreed with nine of the
technology and addresses the major                    recommendations but indicated that it had
management challenge of Security for Taxpayer         already implemented two recommendations by
Data and Employees.                                   overhauling the PIAMS template and involving
                                                      privacy analysts and other users in requirements
WHAT TIGTA FOUND                                      gathering and testing of PIAMS functionality.
                                                      TIGTA did not see evidence of these corrective
The IRS has not established effective processes       actions and continues to believe that the PIAMS
to ensure that the PIAs are completed timely,         version, at the time of our review, could be
updated, and made publicly available and that         improved to effectively automate the key privacy
privacy policies are posted on public websites        impact assessment processes.
for all required systems and collections of
information. Further, in December 2011, the
IRS implemented the Privacy Impact
Assessment Management System (PIAMS) to
automate the process of completing PIAs in a
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  February 27, 2013


 MEMORANDUM FOR DIRECTOR, PRIVACY, GOVERNMENTAL LIAISON, AND
                DISCLOSURE


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Improvements Are Needed to Ensure the
                                 Effectiveness of the Privacy Impact Assessment Process
                                 (Audit # 201220009)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 implementation of the privacy provisions of the E-Government Act of 2002.1 This review was
 included in the Treasury Inspector General for Tax Administration’s Fiscal Year 2012 Annual
 Audit Plan and addresses the major management challenge of Security for Taxpayer Data and
 Employees. The IRS requested we conduct this review.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).




 1
     Pub. L. No. 107-347, § 208, 116 Stat. 2899 (2002).
                                   Improvements Are Needed to Ensure the
                           Effectiveness of the Privacy Impact Assessment Process




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Improvements Are Needed to Fully Address the Privacy
          Provisions of the E-Government Act of 2002............................................... Page 3
                    Recommendations 1 and 2: .............................................. Page 7

                    Recommendations 3 through 6:......................................... Page 8

                    Recommendations 7 and 8: .............................................. Page 10

                    Recommendation 9:........................................................ Page 11

          The Privacy Impact Assessment Management System
          Does Not Effectively Automate Key Privacy Impact
          Assessment Processes ................................................................................... Page 12
                    Recommendation 10: ...................................................... Page 13

                    Recommendation 11: ...................................................... Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Glossary of Terms ................................................................ Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 23
                Improvements Are Needed to Ensure the
        Effectiveness of the Privacy Impact Assessment Process




                    Abbreviations

IRS           Internal Revenue Service
OMB           Office of Management and Budget
PGLD          Privacy, Governmental Liaison, and Disclosure
PIA           Privacy Impact Assessment
PIAMS         Privacy Impact Assessment Management System
PII           Personally Identifiable Information
TIGTA         Treasury Inspector General for Tax Administration
                               Improvements Are Needed to Ensure the
                       Effectiveness of the Privacy Impact Assessment Process




                                            Background

Within the Federal Government, privacy is defined as an individual’s expectation that his or her
personal information collected for official Government business will be protected from
unauthorized use and access. From a legislative perspective, the topic of privacy is governed by
several laws.
       The Privacy Act of 19741 regulates what personal information the Federal Government
        can collect about private individuals and how that information can be used.
       The E-Government Act of 20022 provides additional protection for personal information
        by requiring agencies to conduct Privacy Impact Assessments (PIA).3 The PIA is a
        process for examining the risks and ramifications of using information technology to
        collect, maintain, and disseminate information about members of the public and agency
        employees.
       The Consolidated Appropriations Act of 2005, Section 522,4 requires each agency to
        establish a Chief Privacy Officer who assumes the responsibility for privacy and data
        protection policy. This legislation also requires the Inspector General of each agency to
        evaluate the agency’s use of information in identifiable form and the privacy and data
        protection procedures of the agency.
Privacy laws have significant ramifications for the Internal Revenue Service (IRS) because of its
interactions with potentially every household in the United States. During Fiscal Year 2011, the
IRS processed 143 million tax returns from individuals. The IRS processes and maintains
sensitive information from these tax returns in computer systems for use by IRS employees to
perform various jobs as administrators of the Internal Revenue Code.
Within the IRS, the Privacy, Governmental Liaison, and Disclosure (PGLD) organization has
overall responsibility for privacy issues. The Privacy and Information Protection office, which is
one of five offices under the PGLD organization, promotes the protection of individual privacy
and integrates privacy into business practices, behaviors, and technology solutions. The specific
group responsible for oversight of the PIA processes is the Privacy Compliance office.
Beginning in December 2011, the IRS required business owners to submit all new PIAs through
the new Privacy Impact Assessment Management System (PIAMS). The PIAMS is a series of


1
  5 U.S.C. § 552a (a)(5) (1974).
2
  Pub. L. No. 107-347, § 208, 116 Stat. 2899 (2002).
3
  See Appendix IV for a glossary of terms.
4
  Pub. L. No. 108-447, 118 Stat. 2813, 5 U.S.C. § 522a (2004).
                                                                                            Page 1
                                Improvements Are Needed to Ensure the
                        Effectiveness of the Privacy Impact Assessment Process



web pages that allow IRS employees to input required PIAs online. It provides Privacy and
Information Protection subject matter experts with the capability to perform their quality review
of the assessments in an automated system. The PIAMS allows business owners and developers
to enter their PIAs early in the development stage. Further, business owners of legacy systems
are also required to submit their PIAs into the same system.
During our annual audit planning efforts for Fiscal Year 2012, the IRS requested that the
Treasury Inspector General for Tax Administration (TIGTA) conduct a review of the IRS PIA
process to ensure it meets requirements set forth by the Office of Management and Budget
(OMB).5 As part of the E-Government Act of 2002, the OMB requires agencies to: 1) conduct
PIAs for information systems and collections and, in general, make them publicly available;
2) post privacy policies on agency websites used by the public; 3) translate privacy policies into
a standard computer language to enable web browser readability; and 4) report annually to the
OMB regarding compliance.
TIGTA previously issued an audit report in September 2006 on the IRS’s Office of Privacy6 and
found that the IRS was not complying with legislative privacy requirements. Specifically, we
reported that the IRS can take further actions to ensure that PIAs have been conducted for all
systems and applications that collect personal information and to enhance its processes to better
monitor compliance with privacy policy and procedures. In addition, the PIAs were not always
consistently conducted, and review results were not always properly documented. Lastly, the
Office of Privacy did not conduct any compliance reviews on existing PIAs.
This review was performed at the IRS PGLD organization offices in Washington, D.C., and
New Carrollton, Maryland. We performed the review during the period March through
September 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
  OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-Government Act
of 2002, Public Law 107-347 (Sept. 2003). This guidance applies to all executive branch departments and agencies
and their contractors that use information technology or operate websites for purposes of interacting with the public.
6
  TIGTA, Ref. No. 2006-20-166, The Monitoring of Privacy Over Taxpayer Data Is Improving, Although
Enhancements Can Be Made to Ensure Compliance With Privacy Requirements (Sept. 2006).
                                                                                                              Page 2
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process




                                 Results of Review

Improvements Are Needed to Fully Address the Privacy Provisions of
the E-Government Act of 2002
The IRS has emphasized privacy as an agency priority. One of the strategic foundations cited in
the IRS Strategic Plan 2009–2013 is to ensure the privacy and security of data and safety and
security of employees. For this objective, the plan states:
       Taxpayers are legally obligated to report information to the IRS, and we are obligated to
       protect that information. With increasing amounts of data processed, we will redouble
       our efforts to detect and prevent security threats. By securing infrastructure, data, and
       applications, we will manage access to taxpayer information so that we may provide
       quality and timely service while protecting taxpayers’ information.
One of the strategies the IRS identifies for this objective is to promote public confidence and
trust through the prevention and detection of security threats and the protection of Personally
Identifiable Information (PII).
During our review, we found that the Privacy Compliance office analysts effectively conducted
in-depth quality reviews of completed PIAs submitted by system and program owners. From a
population of 202 available PIAs completed in Fiscal Years 2011 and 2012, we reviewed
27 hardcopy PIAs and 20 online PIAs from the PIAMS and found that all PIAs contained the
required information, such as an analysis of how PII is processed by the system and a description
of how security risks are mitigated. Further, the Privacy and Information Protection office
complied with the updated privacy reporting requirements by preparing and submitting required
reports to the Department of the Treasury.
Despite its commitment toward privacy and improvements from our prior review, the IRS
continues to face challenges in meeting legislative privacy requirements. Specifically, we found
that:
      PIAs have not been completed or updated for all systems or customer surveys where
       taxpayer or employee information have been collected and maintained.
      PIAs have not been posted to the IRS’s public website.
      PIAs may not be completed and submitted for internal SharePoint collaboration sites.
      Privacy notices have not been posted on all external websites.
      Key PIA processes have not been documented in standard operating procedures.

                                                                                            Page 3
                                Improvements Are Needed to Ensure the
                        Effectiveness of the Privacy Impact Assessment Process



The process to ensure that a PIA is completed, timely updated, and publicly
posted for all required systems, collections of information, and collaborative sites
is not effective
The PIA consists of a set of questions that help define how a system or collection of information
affects taxpayer or IRS employee privacy and can help eliminate unanticipated weaknesses in a
system when conducted during the planning and design phases. PIAs are required for
information technology systems or projects that collect, maintain, or disseminate information
about members of the public as well as electronic collections of information that include 10 or
more persons. Additionally, PIAs are required to be performed and updated when a system
change creates new privacy risks. This includes conversions of paper-based records systems to
electronic systems, significant system management changes, and other system changes. To
initiate the PIA process, the Privacy Compliance office provides system owners with a
questionnaire to assess the system’s privacy requirements and determine whether a major change
has occurred. The owners of the new or updated system and their Information Technology
organization counterpart complete the PIA as part of the Security Assessment and Authorization
that is required for all systems.7 The system owners answer the PIA questions and submit results
to the Privacy Compliance office for review and approval. In addition to the PIA for systems
and applications, the Privacy Compliance office has prepared PIA templates for customer
surveys, internal collaboration websites, and third-party external websites.
The IRS did not complete PIAs for all computer systems
The IRS has not established an effective process to ensure that a PIA is completed for all
required computer systems that store or process PII. The E-Government Act of 2002 requires
agencies to conduct a PIA before developing or procuring information technology systems or
projects that collect, maintain, or disseminate information about members of the public or
initiating a new electronic collection of information for 10 or more persons. Systems that store
or process PII without a PIA could adversely impact public assurance that personal information
is being adequately protected. PIAs are also required to be performed and updated when a
system change creates new privacy risks. System owners are supposed to use a Major Change
Determination template when recording system changes. Privacy Compliance office officials
told us they plan to revise this template to include system retirements and name changes.
We initially identified 582 systems or collections of information on the current production
environment8 that did not match the list of PIAs maintained by the Privacy Compliance office.
From the 582 systems or collections of information, we selected a judgmental sample9 of 30 and


7
  PIAs are part of the IRS information technology development process and should be completed for all new
systems.
8
  We used the IRS As-Built Architecture to identify these information systems and collections of information in the
current production environment. The current production environment includes applications and data stores.
9
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                            Page 4
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process



found that 13 (43 percent) are storing or processing PII and thus require a PIA. The business
representatives for these 13 systems all told us that they were aware that these systems contained
PII. When we raised this finding with Privacy Compliance office officials, they made a
concerted effort to evaluate all known systems and collections of information and eventually
determined that 184 systems and collections of information required a PIA but one could not be
located. Prior to our audit, the Privacy Compliance office had not established a process to
reconcile the total inventory of systems with those for which a PIA has been completed. The
Privacy Compliance office completely relied on system owners to be fully aware of the details
within the E-Government Act and the IRS PIA policy to complete PIAs.
The IRS did not update PIAs as required
According to IRS policy, all systems shall be reauthorized to operate whenever the system
undergoes a significant change or every three years, whichever occurs first. To align with this
reauthorization requirement, the Privacy Compliance office policy requires all existing PIAs
to be reviewed and updated every three years at a minimum. However, the IRS has not
established an effective process to ensure that PIAs are timely updated for all required systems
that contain PII. Although the Privacy Compliance office maintains a PIA control listing for
Fiscal Years 2008 through 2012 and the PIAMS has been operational since December 2011,
neither the control listing nor the PIAMS identifies whether PIAs have reached the threshold of
the mandatory three-year cycle for an update review. As a result, the Privacy Compliance office
has no assurance that all PIAs requiring an update review will receive one.
We identified 162 PIAs on the Fiscal Year 2008 control listing and determined that 56 PIAs have
no record of an update on the subsequent years’ PIA control records. Our review of a statistical
sample of 20 of the 56 PIAs determined that 11 (55 percent) did not have a subsequent update as
required. After we shared this finding with the Privacy Compliance office, we were informed
that a future enhancement to the PIAMS will provide the capability to identify PIAs that are
nearing the three-year update threshold. Once implemented, this enhancement will help ensure
that PIAs are updated as required on an ongoing basis.
The IRS did not complete PIAs for all customer surveys
Customer surveys are an important and useful tool for the IRS to measure program effectiveness,
customer satisfaction, and delivery of services, but care must be taken to collect, use, disclose, or
share PII during the survey process. The IRS has not established an effective process to ensure
that PIAs are completed for surveys when necessary. The IRS business divisions submit their
surveys to the Statistics of Income Division for review before sending them to the OMB for
approval. However, the Statistics of Income Division did not review whether PII is being
collected or maintained, nor did it assess privacy implications of the survey. In addition, this
office did not share the survey with the Privacy Compliance office or require evidence of their
review prior to processing the survey for approval.


                                                                                              Page 5
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process



Although the Privacy Compliance office provides a website that includes survey PIA guidance,
the survey owners determine whether they need to prepare and submit a PIA to the Privacy
Compliance office for approval. We identified 130 IRS customer satisfaction surveys and
cognitive research studies conducted during the period January 2011 to June 2012. The Privacy
Compliance office received and processed only six survey PIAs during this time period. We
determined that Privacy Compliance office personnel performed no reconciliation of surveys in
its inventory and were not aware of the volume of IRS customer surveys. Further, the Privacy
Compliance office has not developed a questionnaire for survey owners to assess their need for a
PIA.
After we shared this finding with the IRS, it began implementing a new process whereby the
Statistics of Income Division will route copies of all survey submissions to the Privacy
Compliance office for review beginning August 2012. Once received, a Privacy Compliance
office analyst will first review the survey within five business days to determine whether a PIA is
necessary. If so, the Privacy Compliance office will work with the business operating division
analysts within 15 business days to complete the PIA process and notify the Statistics of Income
Division so the survey package can be forwarded to the Department of the Treasury and the
OMB for review and approval. The Statistics of Income Division will also provide the Privacy
Compliance office with a monthly listing of all surveys submitted to the division so that the
Privacy Compliance office can verify that it reviewed all the survey submissions. On
August 1, 2012, officials from the Privacy Compliance office and the Statistics of Income
Division established an agreement between the two offices to ensure that all surveys are
identified and reviewed for privacy requirements.
PIAs were not posted publicly on the IRS website
The OMB directs that information systems and collections of information containing taxpayer
PII require a PIA and, if practicable, that the agency make the PIA publicly available through its
website. The IRS, however, does not have an effective process to ensure that PIAs that contain
taxpayer information are posted to its public website. We identified 80 PIAs with taxpayer PII
that the IRS had not posted to its public website. These included 71 from the manual control
listings and nine completed in the PIAMS.
Further, the PIAMS does not have the capability to identify and route the appropriate PIAs for
eventual posting to the IRS public website, and the system does not have an alert to identify
those PIAs that have not been posted to the public website. Currently, the Privacy Compliance
office manually tracks PIAs through the website posting process, which is not effective. As a
result, the public has no information about the security of their information in these affected
systems or collections of information, and the IRS has therefore not complied with OMB
instructions.




                                                                                            Page 6
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process



The IRS has not completed PIAs for internal collaboration sites
The IRS increasingly relies on digital forms of communication for computer-based real-time
collaboration. Internal collaborative application websites (e.g., SharePoint) are established and
configured for basic file sharing and team collaboration. These systems provide virtual space,
enabling participants to communicate while also allowing for the sharing of applications and
documents. Some of these features raise network and data security concerns and, therefore,
proper security controls must be implemented.
The OMB requires the IRS to develop and implement PIA processes to ensure that a PIA is
prepared for each system or collection of information that stores PII. Therefore, any SharePoint
site that stores PII is required to have a PIA, and the Privacy Compliance office correctly states
this requirement on its website. The Internal Revenue Manual, however, incorrectly states that
collaborative application sites such as SharePoint that are established and configured for basic
file sharing and team collaboration do not require a security authorization or a PIA. This
erroneous statement in the Internal Revenue Manual may result in SharePoint site owners not
submitting a PIA when PII is present, as required. The IRS has prepared a draft correction to the
Internal Revenue Manual policy and has also included a reference to the Privacy Compliance
office website instructions for SharePoint. The IRS does not have adequate assurance that it is
complying with the privacy provisions set forth by the OMB because PII could be stored on
SharePoint sites for which a PIA has not been conducted.
The Privacy Compliance office has prepared a draft SharePoint PIA questionnaire template in
order to help expedite the compliance process for IRS collaboration sites. Once published,
SharePoint site collaboration administrators who know PII will be on their sites will be able to
respond to the template questions and forward the form to the Privacy Compliance office. The
Privacy Compliance office will use those template responses to assess and mitigate any privacy
risks. Sites without PII will not require a PIA. This will help facilitate the PIA determination
process for SharePoint sites.

Recommendations
The Director, PGLD, should:
Recommendation 1: Investigate all 184 information systems and collections of information
identified and coordinate with system owners to complete the required PIAs.
       Management’s Response: The IRS agreed with this recommendation. The PGLD
       organization stated it will determine which of these 184 systems require a PIA and
       coordinate with system owners to receive the required PIAs by March 15, 2014.
Recommendation 2: Establish a) an annual reconciliation process in which the PIA inventory
is reconciled with all information systems and collections of information in the current
production environment; b) the completion of the planned revisions to the Major Change

                                                                                            Page 7
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process



Determination template, which will help facilitate the annual reconciliation process; and c) a
process to identify all completed and approved PIAs that have not been updated within three
years and coordinate with system owners to review and update these PIAs as required.
       Management’s Response: The IRS agreed with this recommendation. The PGLD
       organization stated it has begun work on a PIA inventory reconciliation process and
       completed the planned revisions to the Major Change Determination template. A process
       will be added to the PIAMS to identify future PIAs that are not updated within three
       years. Additionally, the PGLD organization is working on a manual process to identify
       older PIAs, not yet in the PIAMS, which need to be updated. Once the outdated PIAs
       have been identified, the PGLD organization will coordinate with system owners to
       update these PIAs.
Recommendation 3: Document its new PIA customer survey processes in the Internal
Revenue Manual or on the PGLD organization website.
       Management’s Response: The IRS agreed with this recommendation. The PGLD
       organization will document its new customer survey process in the Internal Revenue
       Manual or on the PGLD organization website.
Recommendation 4: Ensure that the 80 PIAs that TIGTA identified as well as any other
PIAs currently not available to the public are redacted as necessary and posted to the IRS public
website.
       Management’s Response: The IRS agreed with this recommendation. The PGLD
       organization conducted an analysis and posted nine of the 80 PIAs to the IRS public
       website. In addition, the PGLD organization determined several PIAs do not require
       posting for various reasons, such as 1) incomplete PIAs that were initially submitted but
       never completed by the customers and 2) documents were not full PIAs but were
       Qualifying Questionnaires or Major Change Determinations. The PGLD organization
       stated it would redact and post approximately 20 PIAs to the IRS public website.
Recommendation 5: Update the PIAMS with the functionality to automatically notify the
PGLD organization and the IRS public website web master when actions are required on their
part to process new or existing PIAs for public posting.
       Management’s Response: The IRS agreed with this recommendation and indicated
       the action to address our recommendation was on the PIAMS project plan during our
       audit. The PGLD organization also stated this recommendation was implemented on
       November 29, 2012.
Recommendation 6: Both a) ensure that the new PIA template for SharePoint sites is
completed and published on the Privacy Compliance office website and b) issue a memorandum
to all business operating divisions advising them of the PIA template for SharePoint sites.


                                                                                            Page 8
                                 Improvements Are Needed to Ensure the
                         Effectiveness of the Privacy Impact Assessment Process



           Management’s Response: The IRS agreed with this recommendation. The PGLD
           organization stated it is updating the SharePoint PIA template and applicable policy and
           plans to issue an interim guidance memorandum to all business operating divisions
           advising them of the PIA template for SharePoint sites.

The Privacy Compliance office has not established effective processes to ensure
that the IRS privacy notice is posted on third-party websites and to identify
unauthorized websites
The OMB requires agencies, where feasible, to post their privacy notice on third-party websites
and direct individuals to the agency’s official website for their privacy policy. In addition, the
OMB requires that the notice to be posted on the front page of the third-party website and that all
practical steps be taken to ensure that the notice is conspicuous, salient, clearly labeled, written
in plain language, and prominently displayed at all locations where the public might make PII
available to the IRS.
The IRS has not established an effective process to ensure compliance with the OMB’s
third-party website requirement and to ensure that its privacy notice and a link to its privacy
policy is posted on public websites used by IRS officials. We traversed the Internet and
identified the following four unauthorized public websites that were created by IRS employees
without the knowledge of the Privacy Compliance office.
       1. Twitter IRS Recruiter59 – This site was created by an IRS Human Capital Office
          employee to enable him or her to tweet about job announcements in the IRS.
       2. Twitter IRS Careers – This site was also created by an IRS Human Capital office
          employee to enable him or her to tweet information about careers in the IRS.
       3. IRS LinkedIn – This site is used by current and former IRS employees to share
          information. Once an individual is admitted access to the site, the new member can
          invite and grant access to other members of the public. The public could post its personal
          information on this site.
       4. GovLoop – This site is a social network connecting Federal, State, and local government
          innovators and a resource to connect with peers, share best practices, and find
          career-building opportunities. One of the features of this site is blogging, where an IRS
          Human Capital Office employee has communicated and discussed careers, retirement,
          and other informational topics.
We informed the IRS about the four unauthorized websites, all of which were created before the
IRS established its New Media Governance Council10 to approve third-party websites in
December 2010. The two Twitter websites were created by employees in the IRS Human


10
     The New Media Governance Council is located within the Communication and Liaison Division at the IRS.
                                                                                                        Page 9
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process



Capital office who were not official communicators handling official IRS media. The Privacy
Compliance office took corrective action and both Twitter websites were deactivated in
September 2012. The IRS LinkedIn and GovLoop websites violate OMB policy because both
allow the public to post PII but the IRS’s privacy notice and a link to its privacy policy is not
provided on the websites. The Privacy Compliance office told us that the IRS LinkedIn and
GovLoop websites did not contain PII and, therefore, a privacy notice was not required on these
websites. However, during our review, we found information about IRS employees and other
PII on these websites.
The Privacy Compliance office was not aware of the need to monitor the Internet for unapproved
third-party websites. Further, if the IRS privacy policy is not posted, the public might not be
aware of the risks of sharing PII on third-party websites. Taxpayers could be jeopardizing their
information on these websites without the understanding that the IRS is not responsible for
security over these websites.

Recommendations
The Director, PGLD, should:
Recommendation 7: Issue a memorandum, in conjunction with the Communication and
Liaison Division, to all IRS executives requesting they notify the New Media Governance
Council with the details of any proposed third-party website activity for review and approval.
       Management’s Response: The IRS agreed with this recommendation. To raise
       awareness of the New Media Governance Council notification process, the PGLD
       organization will coordinate with the Communications and Liaison Division to issue a
       memorandum requesting IRS executives notify the New Media Governance Council of
       any proposed third-party website activity for review and approval.
Recommendation 8: Ensure that a process is implemented whereby the IRS a) monitors the
Internet on a continual basis for unauthorized third-party websites and b) coordinates with
website owners to post the IRS privacy notice and a link to the IRS privacy policy on other
third-party and social media websites.
       Management’s Response: The IRS agreed with this recommendation. The PGLD
       organization will partner with the Communications and Liaison Division to develop a
       monitoring solution to detect unauthorized IRS social media sites. Through the New
       Media Governance Council and the PIA process, the IRS will ensure that authorized
       social media site owners post the required privacy notices.

Key PIA processes are not documented in standard operating procedures
According to the Government Accountability Office, assessing the effectiveness of internal
controls includes a determination that written policies and procedures have been developed and

                                                                                          Page 10
                              Improvements Are Needed to Ensure the
                      Effectiveness of the Privacy Impact Assessment Process



are in place for all activities.11 Privacy Compliance office management has not ensured that
complete and up-to-date written guidelines in the form of standard operating procedures have
been prepared for the Privacy Compliance office analysts who perform assessment, review, and
processing of PIAs submitted both manually and electronically through the PIAMS. During our
on-site observation of the PIA assessment and completion process, Privacy Compliance office
analysts prepared informal guidelines for TIGTA to follow for both the manual PIAs and those
in the PIAMS due to the lack of formal written guidelines.
The PGLD organization identifies the roles and responsibilities for privacy, information
protection, and data security (including PIAs) in the Internal Revenue Manual, but these
guidelines lack the granularity and specific detailed procedures for PIA assessment, review, and
processing. The Internal Revenue Manual is the official source of procedures, guidelines,
policies, and delegations of authority relating to administration and operations, and subordinate
procedural guidance (standard operating procedures, desk procedures, etc.) is used to provide
detailed instructions for implementing and complying with the Internal Revenue Manual
requirements. Written standard operating procedures are important because Privacy Compliance
office analysts are responsible for a variety of critical tasks that include performing assessments
of all PIAs submitted. If problems are identified with a PIA submission, the analysts notify and
communicate with the system owners to assist them in making the necessary corrections. When
the assessment is completed and all data are correct, the analysts ensure that the PIAs receive
approval by the Associate Director, Privacy Compliance. They also ensure that the approved
PIAs get routed to the Disclosure office for redaction, when applicable, before eventual
publication on the IRS public website. However, these important tasks are not detailed in
complete and updated written guidelines. If the experienced analysts leave the Privacy
Compliance office, there could be an adverse impact on the quality and timeliness of PIA
processing.

Recommendation
Recommendation 9: The Director, PGLD, should ensure that current and complete standard
operating procedures are established for all PIA processing procedures, including reviewing and
approving PIAs, updating PIAs, and reconciling PIAs to other IRS system inventories.
        Management’s Response: The IRS agreed with this recommendation. The PGLD
        organization has developed standard operating procedures for the PIA review process and
        is currently drafting comprehensive PIA processing procedures.




11
  Government Accountability Office (formerly the General Accounting Office), GAO-01-1008G, Internal Control
Standards: Internal Control Management and Evaluation Tool (Aug. 2001).
                                                                                                   Page 11
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process



The Privacy Impact Assessment Management System Does Not
Effectively Automate Key Privacy Impact Assessment Processes
The purpose of the PIAMS is to allow IRS system owners to electronically input responses to
questions about PII to create required PIAs and then allow the Privacy Compliance office subject
matter experts the ability to analyze the data requirements for the systems in an electronic format
rather than the paper-based format used previously. The PIAMS consists of a series of web
pages that allow IRS employees to input required PIAs online. The PIAMS also allows business
owners and developers to enter their PIAs early in the development stage. Business owners of
legacy systems are also required to submit their PIAs via the PIAMS. According to stated
system objectives, the PIAMS is supposed to facilitate a more efficient method of completing the
PIA, replacing the manual paper-based process.
We found the PIAMS does not effectively automate the review component of the PIA process.
Privacy Compliance office management did not ensure that analysts, who are the subject matter
experts on PIAs, were fully involved in the establishment of the PIAMS processes. Additionally,
the PIAMS was not effectively tested by the system owners or the analysts who perform quality
reviews of the assessments in the PIAMS. Privacy Compliance office analysts told us that they
are not satisfied with PIAMS functionality and they still must perform some manual processes
that the PIAMS either does not complete effectively or does not have the capability to address.
The analysts simply do not consider the PIAMS to be more efficient than the manual PIA
process that the system was intended to replace.
Based on our observations and analyses, we came to the same conclusion. We identified several
key processes that were not effectively automated by the PIAMS. Examples include:
      The original manual PIA template allowed Privacy Compliance office analysts to easily
       skim the system owners’ answers to the 19 questions posed. However, the new electronic
       PIA template in the PIAMS contains 32 questions in 11 separate sections and 27 different
       computer screens online. Each screen must be viewed separately because the PIAMS
       does not afford a scrolling feature. The Privacy Compliance office analysts told us they
       print the entire PIA from the PIAMS before conducting their quality review, thereby
       returning it to a manual process of review.
      The order of questions in the PIAMS template hinders the review of the PIA. For
       example, a key question for determining the need for a PIA is whether the system under
       review contains PII. In the PIAMS, this PII question is not asked until question eight of
       32. Another key question regards whether a System of Records Notice is required for the
       system and whether the system contains 10 or more records with PII. These answers are
       not addressed until questions 30 and 31, respectively.
      Many of the electronic questions allow the system owner to input only simple yes or no
       answers. However, the previous PIA template required the system owner to provide

                                                                                           Page 12
                           Improvements Are Needed to Ensure the
                   Effectiveness of the Privacy Impact Assessment Process



       narrative explanations and details to facilitate a more thorough understanding of the
       system.
      The PIAMS does not always send e-mail notifications to the Privacy Compliance office
       official who is required to approve the PIA after the Privacy Compliance office analyst
       completes his or her review. Other important e-mail notifications are not always sent to
       officials who are required to take actions, such as Disclosure office analysts who must
       redact the PIA before it is posted to the IRS public website. These notifications currently
       must be performed outside of the PIAMS.
At the request of the Privacy Compliance office, MITRE Corporation (MITRE) consultants met
with Privacy Compliance office officials in July 2012 and, in conjunction with analyst
suggestions, proposed PIAMS template changes. The analysts and MITRE regrouped, modified,
and re-ordered the PIAMS questions to eliminate unnecessary information and reduce the level
of effort required by the Privacy Compliance office reviewers. The revised questions include
more detailed selections replacing yes or no responses in some questions, and the original 32
PIAMS questions are reduced to 22 questions with several sub-questions and better reporting
capability. We reviewed the MITRE results and believe they substantiate claims made by
Privacy Compliance office analysts that problems exist with the current state of the PIAMS.

Recommendations
The Director, PGLD, should:
Recommendation 10: Assess the recommended PIAMS template modifications submitted by
MITRE, as well as the necessity, feasibility, and prioritization of the planned PIAMS updates
listed in the current project plan.
       Management’s Response: The IRS stated it independently took action on this
       recommendation prior to our making the recommendation. The PGLD organization
       stated that a team of IRS analysts and management, with MITRE’s assistance, overhauled
       the PIAMS template in response to user feedback. The PGLD organization also stated
       the PIAMS template was rewritten and rearranged into an effective, comprehensive
       electronic assessment of privacy risks. Lastly, the PGLD organization stated it
       reprioritized several updates to the PIAMS based on customer feedback and its own
       evaluations and will continue to do so.
       Office of Audit Comment: We did not see evidence that the PIAMS template was
       overhauled, rewritten, or rearranged to address the deficiencies that we and MITRE
       identified. We continue to believe the PIAMS version, at the time of our review, could
       be improved to ensure that PIA processes are more efficient than the manual PIA
       processes the system was supposed to replace.


                                                                                          Page 13
                           Improvements Are Needed to Ensure the
                   Effectiveness of the Privacy Impact Assessment Process



Recommendation 11: Gather, document, and assess the system requirements from PGLD
organization analysts and other officials who use the PIAMS and implement requirements
changes as necessary, and test newly implemented user requirements to ensure that the intended
efficiency benefits are achieved.
       Management’s Response: The IRS stated it independently took action on this
       recommendation prior to our making the recommendation. The PGLD organization
       indicated that since November 2011 it has conducted information gathering on PIAMS
       requirements from PGLD organization analysts and other users. In addition, the PGLD
       organization stated it holds weekly PIAMS status update meetings with analysts, the
       developer, and the Contracting Officer’s Representative to ensure an effective process.
       As a result of the meetings, the PGLD organization stated it implements changes to the
       PIAMS as necessary and performs testing with the PGLD organization analysts and
       customers.
       Office of Audit Comment: The evidence we reviewed indicates the deficiencies in
       the PIAMS resulted from a lack of requirements gathering and testing by the PGLD
       organization analysts, who are the subject matter experts on PIAs. We continue to
       believe the PIAMS version, at the time of our review, could be improved to effectively
       automate the key privacy impact assessment processes.




                                                                                        Page 14
                                Improvements Are Needed to Ensure the
                        Effectiveness of the Privacy Impact Assessment Process



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the IRS’s processes to implement the OMB
privacy provisions of the E-Government Act of 2002.1 To accomplish our overall objective, we:
I.       Determined whether the IRS has established effective policies, plans, and procedures to
         ensure that a PIA2 is properly completed for each required system.
         A. Evaluated the PIA policies, plans, and procedures to ensure compliance with the key
            standards specified in OMB Memorandum M-03-22,3 including initial PIA
            assessment, preparation, submission, quality review, approval, publication, and
            updates.
         B. Interviewed PGLD organization officials to identify the controls they implemented to
            ensure that a PIA is completed and updated for all required systems.
         C. Assessed the adequacy of the PIA determination process for surveys.
         D. Evaluated processes to ensure that a PIA is completed for each SharePoint site that
            stores PII.
         E. Obtained downloads of the PIAs accounted for by the PGLD Privacy Compliance
            office in the PIAMS and in Fiscal Years 2008 through 2012 PIA inventory manual
            control listings.
         F. Determined whether the PGLD Privacy Compliance office’s processes ensure that a
            PIA is completed for all systems that require a PIA.
             1. Obtained a download of the IRS system inventories that contained a total of
                823 systems.
             2. Identified 582 systems in the inventories that did not match systems in the PIA
                listings.




1
  Pub. L. No. 107-347 (2002), sec. 208.
2
  See Appendix IV for a glossary of terms.
3
  OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-Government Act
of 2002, Public Law 107-347 (Sept. 2003). This guidance applies to all executive branch departments and agencies
and their contractors that use information technology or operate websites for purposes of interacting with the public.
                                                                                                             Page 15
                                   Improvements Are Needed to Ensure the
                           Effectiveness of the Privacy Impact Assessment Process



                3. Selected a judgmental sample4 of 30 unmatched systems from the
                   582 systems in Step I.F.2. to identify active systems that should have a PIA.
                4. Interviewed the business representatives for the 30 unmatched systems in our
                   judgmental sample and determined whether they were aware that a PIA was
                   required based on the E-Government Act of 2002.
                5. At the end of our fieldwork, we worked with IRS officials to cull down the
                   number of systems needing a PIA from 582 to 184 systems.
           G. Determined whether redacted copies of all PIAs are made available on the IRS.gov
              public website, except where prohibited for security reasons.
                1. Compared the PIAs posted on the IRS.gov public website to the PGLD
                   organization’s PIA control listings and the independent inventory listing to
                   identify those not posted.
                2. Determined the validity of the reasons for the PGLD organization not posting any
                   PIAs to the IRS.gov public website.
           H. Conducted an on-site observation of the PIAMS and the procedures performed by the
              PGLD organization analysts who process and review the PIAs. We conducted a
              manual reconciliation of all records in the PIAMS.
           I. Determined whether PGLD organization processing ensures that PIAs are properly
              approved, current, complete, accurate, and in compliance with OMB and
              E-Government Act provisions.
                1. Selected a statistical sample of 25 PIAs from the PIA listings and 18 PIAMS PIAs
                   based on a ±5 percent precision rate, 2 percent error rate, and 95 percent
                   confidence level. We also judgmentally selected three surveys and one social
                   media PIAs.
                2. Selected a statistical sample of 20 Fiscal Year 2008 PIAs with no three-year
                   update, based on a ±5 percent precision rate, 2 percent error rate, and 95 percent
                   confidence level.
                3. Determined whether the selected PIAs were properly approved, complete, and
                   accurate and whether the PIA answered the required questions that define how a
                   system affects taxpayer or IRS employee privacy.
II.        Determined whether the IRS posted a privacy policy on their public third-party websites
           and whether the policy complies with OMB requirements.



4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 16
                            Improvements Are Needed to Ensure the
                    Effectiveness of the Privacy Impact Assessment Process



III.   Determined whether the IRS submitted required privacy information in Fiscal Year 2011
       to the Department of the Treasury, based on the updated reporting requirements for the
       Federal Information System Management Act, Section D, Senior Agency Official for
       Privacy report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: OMB Memorandum M-03-22, OMB
Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002; the
Department of the Treasury’s Publication 25-07, Privacy Impact Assessment Manual (dated
August 2008); and related Internal Revenue Manual guidelines and processes followed by the
IRS to implement the privacy provisions of the E-Government Act of 2002. We evaluated these
controls by interviewing IRS officials in the PGLD office and other IRS offices that have duties
and responsibilities for implementing the privacy provisions. We also analyzed pertinent
documentation and observed the operation of the PIAMS.




                                                                                         Page 17
                           Improvements Are Needed to Ensure the
                   Effectiveness of the Privacy Impact Assessment Process



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent T. Sagara, Director
W. Allen Gray, Audit Manager
Jena R. Whitley, Acting Audit Manager
George L. Franklin, Lead Auditor
Midori Ohno, Senior Auditor
Sam Mettauer, Information Technology Specialist




                                                                                     Page 18
                          Improvements Are Needed to Ensure the
                  Effectiveness of the Privacy Impact Assessment Process



                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Privacy, Governmental Liaison, and Disclosure OS:P
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Privacy and Information Protection, OS:P:PIP
Chief Counsel CC
National Taxapayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Office of Privacy, Governmental Liaison, and Disclosure OS:P
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 19
                           Improvements Are Needed to Ensure the
                   Effectiveness of the Privacy Impact Assessment Process



                                                                               Appendix IV

                               Glossary of Terms

Term                            Definition

As-Built Architecture           An integral part of the IRS’s Enterprise Architecture dedicated
                                to documenting the Current Production Environment
                                (applications, data stores, infrastructure, data interfaces) and
                                related organizations, locations, technology platforms, etc.
Federal Information Security    A part of the E-Government Act of 2002 that consolidates
Management Act                  many security requirements and guidance into an overall
                                framework for managing information security.
Fiscal Year                     A 12-consecutive-month period ending on the last day of any
                                month, except December. The Federal Government’s fiscal
                                year begins on October 1 and ends on September 30.
Information Technology          Any equipment or interconnected system or subsystem of
                                equipment that is used in the automatic acquisition, storage,
                                manipulation, management, movement, control, display,
                                switching, interchange, transmission, or reception of data or
                                information by an executive agency.
Internal Revenue Manual         The single, official source of IRS instructions to staff.
                                Instructions to staff are procedures, guidelines, policies, and
                                delegations of authority and other such instructional materials
                                relating to the administration and operation of the IRS.
MITRE Corporation (MITRE)       Hired by the IRS as a Federally Funded Research and
                                Development Center to assist with the systems modernization
                                effort.
New Media Governance            Serves as an advisory body for oversight and coordination and
Council                         for providing input and guidance on major decisions relating
                                to development and implementation of new media channels.




                                                                                        Page 20
                           Improvements Are Needed to Ensure the
                   Effectiveness of the Privacy Impact Assessment Process




Term                         Definition

Office of Management and     The OMB’s predominant mission is to assist the President in
Budget (OMB)                 overseeing the preparation of the Federal budget and to
                             supervise administration in Executive Branch agencies. The
                             OMB evaluates the effectiveness of agency programs,
                             policies, and procedures. The OMB oversees and coordinates
                             the Administration’s procurement, financial management,
                             information, and regulatory policies.
Office of Privacy,           The mission of the PGLD organization is to preserve and
Governmental Liaison, and    enhance public confidence by advocating for the protection
Disclosure (PGLD)            and proper use of identity information. The PGLD
                             organization consists of five offices: Governmental Liaison
                             and Disclosure; Office of Safeguards; Online Fraud Detection
                             and Prevention; Privacy and Information Protection; and
                             Program and Planning Support.
Personally Identifiable      Information that can be used to distinguish or trace an
Information (PII)            individual’s identity, either alone or when combined with
                             other personal or identifying information that is linked or
                             linkable to a specific individual.
Privacy Impact Assessment    An analysis of how information is handled: (1) to ensure that
(PIA)                        handling conforms to applicable legal, regulatory, and policy
                             requirements regarding privacy; (2) to determine the risks and
                             effects of collecting, maintaining, and disseminating
                             information in identifiable form in an electronic information
                             system; and (3) to examine and evaluate protections and
                             alternative processes for handling information to mitigate
                             potential privacy risks.
Privacy Impact Assessment    A series of web pages that allows customers to input responses
Management System (PIAMS)    to questions about PII. The PIAMS also allows the Privacy
                             subject matter experts the ability to analyze the data
                             requirements for the particular system in an electronic format.




                                                                                      Page 21
                           Improvements Are Needed to Ensure the
                   Effectiveness of the Privacy Impact Assessment Process




Term                            Definition

Privacy Notice                  A brief description of how the agency’s privacy policy will
                                apply in a specific situation. The privacy notice should notify
                                individuals before they engage with an agency and should be
                                provided on the specific web page or application where
                                individuals have the opportunity to make PII available to the
                                agency.
Privacy Policy                  A single, centrally located statement about an agency’s
                                general privacy practices that is accessible from an agency’s
                                official homepage. It should be a consolidated explanation of
                                the agency’s general privacy-related practices that pertain to
                                its official website and its other online activities.
Senior Agency Official for      The Director, PGLD, serves as the IRS Senior Agency Official
Privacy                         for Privacy, having overall responsibility for accounting to the
                                Department of the Treasury, the OMB, and other regulatory
                                agencies regarding the IRS’s implementation of information
                                privacy protections, including full compliance with Federal
                                laws, regulations, and policies relating to information
                                protection.
Statistics of Income Division   The mission of the Statistics of Income Division is to collect,
                                analyze, and disseminate information on Federal taxation for
                                the Department of the Treasury’s Office of Tax Analysis,
                                congressional committees, the IRS in its administration of the
                                tax laws, other organizations engaged in economic and
                                financial analysis, and the general public.
System of Records Notice        The Privacy Act requires publication of a System of Records
                                Notice in the Federal Register for all Systems of Records in
                                the agency for which personal information about individuals is
                                retrieved by unique individual identifiers.
Third-Party Website             Web-based technologies that are not exclusively operated or
                                controlled by a Government entity and often are not part of an
                                official Government domain.




                                                                                        Page 22
             Improvements Are Needed to Ensure the
     Effectiveness of the Privacy Impact Assessment Process



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 23
        Improvements Are Needed to Ensure the
Effectiveness of the Privacy Impact Assessment Process




                                                    Page 24
        Improvements Are Needed to Ensure the
Effectiveness of the Privacy Impact Assessment Process




                                                    Page 25
        Improvements Are Needed to Ensure the
Effectiveness of the Privacy Impact Assessment Process




                                                    Page 26
        Improvements Are Needed to Ensure the
Effectiveness of the Privacy Impact Assessment Process




                                                    Page 27
        Improvements Are Needed to Ensure the
Effectiveness of the Privacy Impact Assessment Process




                                                    Page 28
        Improvements Are Needed to Ensure the
Effectiveness of the Privacy Impact Assessment Process




                                                    Page 29
